No. 20-107
Cedar Point Nursery, et al.,
Petitioners
v.
Victoria Hassid, et al.,

CERTIFICATE OF COMPLIANCE
In compliance with this Court’s Rule 33.1(h), I hereby certify that the Amicus
Curiae Brief in the above-captioned case complies with the typeface requirements of
Supreme Court Rule 33.1(b) because it is prepared in Century Schoolbook font, size
12 point for the text and 10 point for the footnotes, and that this brief contains
2,945 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d).

Executed this 2nd day of September, 2020.

/s/ Jeffrey Redfern
Jeffrey Redfern
Counsel for Petitioners

